No. 19-1269

In The
TCL COMMUNICATION TECHNOLOGY HOLDINGS LIMITED, ET AL.,
v.

Petitioners,

TELEFONAKTIEBOLAGET LM ERICSSON, ET AL.,

Respondents.
On Petition for Writ of
Certiorari to the United States
Court of Appeals for the Federal Circuit
CERTIFICATE OF SERVICE

I, Thomas K. Hedemann, a member of the bar of this Court, hereby
certify that, on this 4th day of June, 2020, all parties required to be served
have been served copies of the BRIEF OF AMICUS CURIAE U-BLOX IN
SUPPORT OF PETITIONERS in this matter via electronic mail to the
addresses on the attached service list.
Executed on June 4, 2020

Thomas K. Hedemann
Counsel of Record
AXINN, VELTROP &
HARKRIDER LLP
90 State House Square
Hartford, CT 06103
(860) 275-8145
thedemann@axinn.com

SERVICE LIST
PETITIONERS:
Seth P. Waxman
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave, N.W.
Washington, D.C. 20006
202-663-6000
Seth.Waxman@wilmerhale.com

RESPONDENTS:
Jeffrey Alan Lamken
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
202-556-2010
jlamken@mololamken.com

1

